APPENDIX

1a
APPENDIX A
[PUBLISH]

UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH
____________
No. 18-12024
____________
D.C. Docket No. 1:16-cr-00243-ODE-JFK-1
UNITED STATES OF AMERICA,

Plaintiff-Appellee,
versus
NATHAN VAN BUREN,

Defendant-Appellant.
____________
Appeal from the United States District Court
for the Northern District of Georgia
(October 10, 2019)
Before MARTIN, ROSENBAUM, and BOGGS,*
Circuit Judges. ROSENBAUM, Circuit Judge:

* Honorable Danny J. Boggs, United States Circuit Judge for
the Sixth Circuit, sitting by designation.

2a
Perhaps Dudley Field Malone said it best when he
opined, “One good analogy is worth three hours’
discussion.”1 Or in this case, 15 pages of discussion.
See infra at pp. 9–23.
Take, for example, this case.
“[A] lawsuit before a court” is a pretty big deal to
most people. But a generic “question” or “matter,” in
common usage, maybe not so much.
That impression may change, though, if we clarify
what we mean by “question” or “matter” in a specific
context by analogizing to something else. So if we say
that, for our purposes, to qualify as a “question” or a
“matter,” the question or matter must be of the same
significance or scope as “a lawsuit before a court,” a
person would understand that we are not talking about
just any old question or matter; we are referring to
1 Richard Nordquist, The Value of Analogies in Writing and
Speech, ThoughtCo., https:// www.thoughtco.com/ what – is - an-

analogy-1691878 (last visited Oct. 8, 2019). Along with Clarence
Darrow, Dudley Field Malone defended John Scopes in the 1925
“Scopes Trial,” formally known as State v. Scopes. Scopes Trial,
Encyclopaedia Britannica, https:// www.britannica.com/event/
Scopes-Trial (last visited Oct. 8, 2019) (“Scopes Trial”); Malone’s
Trial Speech (Full Text), Historical Thinking Matters, http://
historicalthinkingmatters.org/ scopestrial/1/sources/44/fulltext /
(last visited Oct. 8, 2019) (“Malone’s Trial Speech”). In that case,
Tennessee, led by William Jennings Bryan, prosecuted Scopes for
allegedly teaching evolution at a Tennessee high school. Scopes
Trial. Scopes was convicted and fined $100. Scopes v. State, 289
S.W. 363, 367 (Tenn. 1927). The Tennessee Supreme Court then
vacated the judgment since Tennessee law required a jury—not a
judge—to assess any fine of more than $50.00, but in Scopes’s
case, the trial judge had done so. Id. The Tennessee law Scopes
was accused of violating was ultimately repealed in 1967. Scopes
Trial.

3a
only questions or matters on the same scale as “a
lawsuit before a court.” To use a metaphor, the analogy
here is a bridge to understanding.
In this case, though, that bridge was never built.
The government charged Nathan Van Buren with
honest-services
fraud
(through
bribery)
for
undertaking an “official act” in his capacity as a police
officer, in exchange for money. At the close of the
evidence, the district court instructed the jury that an
“official act” is a decision or action on a “question” or
“matter.” But it did not inform the jury that the
“question” or “matter” in this context must be
comparable in scope to a lawsuit, hearing, or
administrative determination. The jury convicted Van
Buren.
Since the jury was not instructed with the crucial
analogy limiting the definition of “question” or
“matter,” and because the government itself did not
otherwise provide the missing bridge, we cannot be
sure beyond a reasonable doubt that the jury convicted
Van Buren of the offense that Congress criminalized
when it enacted the honest-services-fraud and bribery
statutes. For this reason, we must vacate Van Buren’s
honest-services-fraud conviction and remand for a new
trial on that count. Van Buren was also charged with
and convicted of computer fraud, and we affirm that
conviction.
I.
Nathan Van Buren was a sergeant with the
Cumming, Georgia, Police Department. In his capacity
as a police officer, Van Buren came to know a man
named Andrew Albo. Albo was a recent widower in his
early sixties, who allegedly fancied younger women,

4a
including minors and prostitutes. He allegedly paid
prostitutes to spend time with him and then often
accused the women of stealing the money he gave
them. At least one woman also alleged Albo
surreptitiously recorded and harassed her. The Deputy
Chief of Police in the Cumming Police Department
believed that Albo “had a mental health condition” and
considered Albo to be “very volatile,” so he warned his
officers to “be careful” with Albo.
Van Buren did not heed the Deputy Chief’s caveat.
Instead, he fostered a relationship with Albo. Van
Buren, who first met Albo when he helped arrest Albo
for providing alcohol to a minor, often handled the
disputes between Albo and various women. At the
time, Van Buren was grappling with financial
difficulties, and Van Buren saw in Albo a chance to
improve his situation. So Van Buren decided to ask
Albo for a loan. To justify his request, Van Buren
falsely claimed he needed $15,368 to settle his son’s
medical bills. He explained to Albo that he could not
obtain a loan from a bank because he had shoddy
credit.
Unbeknownst to Van Buren, however, Albo
recorded their conversations. Albo presented the
recording of Van Buren’s loan solicitation to a detective
in the Forsyth County Sheriff’s Office. He told the
detective that Van Buren was “shak[ing] him down for
his money.” Albo’s complaint drew the suspicion of the
FBI, which created a sting operation to test how far
Van Buren was willing to go for money. Under the
plan, Albo was to give Van Buren some cash, and in
exchange, Albo was to ask Van Buren to tell him
whether Carson, a woman he supposedly met at a strip
club, was an undercover police officer.

5a
Over a series of meetings and communications
monitored and recorded by the FBI, Albo put the plan
into action. At lunch with Van Buren on August 21,
2015, Albo handed Van Buren an envelope with
$5,000, telling him that this was “not the whole thing.”
Van Buren offered to pay Albo back, but Albo waved
that off, saying money was “not the issue.” Instead,
Albo told Van Buren he had met a woman he liked at a
strip club, but he needed to know if she was an
undercover officer before he would pursue her further.
Van Buren agreed to help.
On August 31, Albo followed up on a previous
discussion the pair had had about searching the
woman’s license plate in the police database. During
that conversation, Albo asked Van Buren whether he
had had a chance to conduct the search yet. Van Buren
replied, “As far as running the plates, I don’t—I don’t
think I got the right plate numbers from you.” Van
Buren then told Albo to just text him the plate
number, so Albo texted Van Buren “Pkp” and “1568,” a
fake license plate number created by the FBI. Van
Buren responded that he would look into the matter,
but he would need the “item” first. Albo replied that he
had “2,” and the pair scheduled to meet for lunch.
At lunch, Albo passed Van Buren an envelope
containing $1,000 and apologized that he did not have
$2,000, as they had discussed.2 Van Buren asked Albo
for the woman’s name, explaining that “the car may
not [be] registered to her.” After learning that her
name was Carson, Van Buren promised to attend to

2 The FBI actually gave Albo $2,000 to pass to Van Buren, so
it appears Albo may have attempted to retain $1,000 for himself.

6a
the matter promptly, and Albo responded, “then I will
have all the money for you.”
A few days later, on September 2, 2015, Van Buren
searched for license-plate number PKP1568 in the
Georgia Crime Information Center (“GCIC”) database,
an official government database maintained by the
Georgia Bureau of Investigation (“GBI”) and connected
to the National Crime Information Center (“NCIC”)
maintained by the FBI. Van Buren then texted Albo to
tell him he had information for him.
The next day, the FBI and GBI arrived at Van
Buren’s doorstep and conducted an interview with Van
Buren. During the interview, Van Buren admitted he
had concocted a fake story about his son’s need for
surgery to justify asking Albo for $15,000. He also
conceded he had received a total of $6,000 from Albo.
In addition, Van Buren confessed he had run a tag
search for Albo and he knew doing so was “wrong.”
And while Van Buren asserted that $5,000 of the
money he received from Albo was a “gift,” he did reply
“I mean he gave me $1,000” when asked if he received
anything in exchange for running the tag. Finally, Van
Buren conceded he understood the purpose of running
the tag was to discover and reveal to Albo whether
Carson was an undercover officer.
A federal grand jury charged Van Buren with one
count of honest-services wire fraud, in violation of 18
U.S.C. §§ 1343 and 1346, and one count of felony
computer fraud, in violation of 18 U.S.C. § 1030. At
trial, the government presented the FBI’s recordings of
the interactions between Van Buren and Albo, and the
jury convicted Van Buren of both counts.

7a
Van Buren now appeals his convictions. He argues
the jury instructions the district court gave were
incorrect, insufficient evidence exists to support his
convictions, and the district court denied him his Sixth
Amendment right to confront an adverse witness
during the trial.
We agree that the jury instructions on the honestservices count were fatally flawed. But we nevertheless
conclude the government presented sufficient evidence
to support a conviction on that count, so we remand
that charge for a new trial. On the other hand, we find
no deficiencies with either the jury instructions for or
the evidence supporting the computer-fraud charge.
Finally, we also reject Van Buren’s claim that he was
denied his Sixth Amendment right to confront an
adverse witness at trial.
II.
We conduct a de novo review of the legal
correctness of a jury instruction, but we review for
abuse of discretion questions concerning the phrasing
of an instruction. United States v. Prather, 205 F.3d
1265, 1270 (11th Cir. 2000). We likewise review for
abuse of discretion a district court’s refusal to give a
requested jury instruction. United States v. Carrasco,
381 F.3d 1237, 1242 (11th Cir. 2004).
As for the sufficiency of evidence to support a
conviction, we review that de novo, considering the
evidence “in the light most favorable to the
government and drawing all reasonable inferences and
credibility choices in favor of the jury’s verdict.” United
States v. Taylor, 480 F.3d 1025, 1026 (11th Cir. 2007).
Under this standard, we have explained that the jury’s
verdict survives “unless no trier of fact could have

8a
found guilt beyond a reasonable doubt.” United States
v. Lyons, 53 F.3d 1198, 1202 (11th Cir. 1995).
Finally, we review de novo a Confrontation Clause
claim. United States v. Curbelo, 726 F.3d 1260, 1271–
72 (11th Cir. 2013).
III.
We divide our discussion into three parts. In
Section A, we address Van Buren’s objections as they
pertain to his honest-services-fraud conviction. Section
B considers Van Buren’s objections to his computerfraud conviction. And finally, we examine Van Buren’s
remaining arguments in Section C.
A.
We begin with honest-services fraud. The
government theorized that Van Buren deprived the
public of his honest services by accepting a bribe, as
that act is defined by the federal bribery statute, 18
U.S.C. § 201. Under § 201, a public official may not
seek or receive anything of value in return for “being
influenced in the performance of any official act.” 18
U.S.C. § 201(b)(2). The statute defines an “official act,”
in turn, as “any decision or action on any question,
matter, cause, suit, proceeding or controversy, which
may at any time be pending, or which may by law be
brought before any public official, in such official’s
official capacity, or in such official’s place of trust or
profit.” Id. § 201 (a)(3).
The controversy here centers on how a jury should
be instructed regarding what constitutes an “official
act.” As relevant on appeal, the district court
instructed the jury as follows on the honest-servicesfraud count:

9a
With respect to Count 2, you are instructed
that it is a federal crime to use interstate wire,
radio or television communications to carry out
a scheme to defraud someone else of a right to
honest services. The Defendant can be found
guilty of this crime only if all of the following
facts are proven beyond a reasonable doubt:
First, that the Defendant knowingly devised or
participated in a scheme to fraudulently
deprive the public of the right to honest
services of the Defendant through bribery or
kickbacks. Second, that the Defendant did so
with an intent to defraud the public of the right
to the Defendant’s honest services; and, third,
that the Defendant transmitted or caused to be
transmitted by wire, radio or television some
communication in interstate commerce to help
carry out the scheme to defraud.
...
Bribery and kickbacks involve the exchanges of
a thing or things of value for official action by
a public official. Bribery and kickbacks also
include solicitation of things of value in
exchange for official action, even if the thing of
value is not accepted or the official action is
not performed, that is, bribery and kickbacks
include the public official’s solicitation or
agreement to accept something of value,
whether tangible or intangible, in exchange for
an official act, whether or not the payor
actually provides the thing of value, and
whether or not the public official ultimately
performs the requested official action.

10a

To qualify as an official act, the public official
must have made a decision or taken an
action on a question or matter. The question
or matter must involve the formal exercise of
governmental power. It must also be
something specific which requires particular
attention to the question or matter by the
public official.
(emphasis added).
Van Buren objected, arguing that the district court
should have instead instructed the jury this way:
To qualify as an official act, the public official
must have [made a decision or taken an action]
. . . on a question, matter, cause, suit,
proceeding, or controversy. Further, the
question, matter, cause, suit, proceeding, or
controversy must involve the formal exercise of
governmental power. It must be similar in
nature to a lawsuit before a court, a
determination before an agency, or a hearing
before a committee. It must also be something
specific which requires particular attention by
a public official.
The public official’s [decision or action] . . . on
that
question,
matter,
cause,
suit,
proceeding, or controversy may include using
his official position to exert pressure on
another official to perform an official act, or
to advise another official, knowing or
intending that such advice will form the
basis for an official act by another official.
But setting up a meeting, talking to another

11a
official, or organizing an event (or agreeing to
do so)—without more—is not an official act.
(emphases added).3
A district court’s refusal to provide a requested
instruction constitutes reversible error if (1) the
requested instruction was legally correct, (2) the
content of the requested instruction was not otherwise
covered, and (3) the omitted instruction was so vital
that its absence seriously impaired the defense. United
States v. Opdahl, 930 F.2d 1530, 1533 (11th Cir. 1991).
After careful review, we conclude that all these
conditions are present here, and the district court
committed reversible error in declining to instruct the
jury that an “official act” “must be similar in nature to
a lawsuit before a court, a determination before an
agency, or a hearing before a committee.” To explain
why, we start with McDonnell v. United States, 136 S.
Ct. 2355 (2016), the case on which Van Buren relied in
requesting the refused instruction.
i.
Like Van Buren’s case, McDonnell also involved a
prosecution for honest-services fraud where the
government defined the crime by reference to the
bribery statute. McDonnell, 136 S. Ct. at 2365. There,
the government indicted former Virginia Governor
Robert McDonnell and his wife, Maureen McDonnell,
for bribery. Id. at 2361. The couple had accepted about
$175,000 in loans, gifts, and other benefits from “the
3 For convenience, we have underlined and bolded the parts
of Van Buren’s requested instruction that do not appear in the
corresponding italicized and bolded instructions the district court
gave the jury.

12a
CEO of Star Scientific, a Virginia-based company that
developed and marketed Anatabloc, a nutritional
supplement made from anatabine, a compound found
in tobacco.” Id. at 2361–62. In exchange, the
government alleged, McDonnell had committed at least
five “official acts” for Star Scientific and its CEO:
(1) he had arranged meetings between Star
Scientific’s CEO and Virginia government
officials to discuss and promote Star Scientific’s
interests;
(2) he had hosted and attended events at the
Governor’s Mansion designed to encourage
Virginia university researchers to study and
promote Star Scientific’s products;
(3) he had contacted other government officials to
encourage Virginia state research universities
to initiate studies favorable to Star Scientific;
(4) he had promoted Star Scientific by allowing its
CEO to invite people to exclusive events at the
Governor’s Mansion; and
(5) he had recommended that senior government
officials in the Governor’s office meet with
executives from Star Scientific.

Id. at 2365–66.
The district court there instructed the jury that
“official acts” are those that “a public official
customarily performs,” including acts “that have been
clearly established by settled practice as part of a
public official’s position” and acts that further long
term goals or contribute to “a series of steps to exercise
influence or achieve an end.” Id. at 2366, 2373. So
charged, the jury convicted McDonnell of honest-

13a
services fraud, and the Fourth Circuit affirmed. The
Supreme Court, though, vacated that conviction
because the instructions incorrectly described an
“official act.” Id. at 2375.
In explaining why, the Court observed that the
words “cause, suit, proceeding or controversy” in §
201(a)(3) “connote a formal exercise of governmental
power, such as a lawsuit, hearing, or administrative
determination.” Id. at 2368. With that in mind, the
Supreme Court applied the interpretive canon noscitur
a sociis (“a word is known by the company it keeps”) to
conclude that a “question or matter”—words that
appear in the same series of items as “cause, suit,
proceeding or controversy” in the definition of “official
act”—must likewise “be similar in nature to a cause,
suit, proceeding or controversy.” Id. at 2368-69
(citation and internal quotation marks omitted).
Confining the plain meaning of “question” or “matter”
in this way makes sense, explained the Court, since
otherwise, “the terms ‘cause, suit, proceeding or
controversy’ would serve no role in the statute—every
‘cause, suit, proceeding or controversy’ would also be a
‘question’ or ‘matter.’” Id. at 2369. The Supreme Court
also cautioned against considering the question,
matter, cause, suit, proceeding or controversy at too
high a level of generality; rather, the Court reasoned,
any qualifying question, matter, cause, suit,
proceeding, or controversy must be “focused and
concrete.” Id.
And to give further color to the phrase “question,
matter, cause, suit, proceeding or controversy,”
McDonnell looked to the surrounding text. “Pending”
and “may by law be brought,” McDonnell explained,
“suggest something that is relatively circumscribed—

14a
the kind of thing that can be put on an agenda, tracked
for progress, and then checked off as complete.” Id. As
for “may by law be brought,” that implies “something
within the specific duties of an official’s position.” Id.
And the word “any” indicates that “the matter may be
pending either before the public official who is
performing the official act, or before another public
official.” Id.
Putting it all together, “question, matter, cause,
suit, proceeding or controversy” must be a formal
government action analogous to a lawsuit, hearing, or
administrative determination that can be pending
before any public official. It must be specific and
concrete, fall within the duties of an official’s position,
and be relatively circumscribed, capable of being put
on an agenda, tracked for progress, and checked off as
complete.
The McDonnell Court then applied this definition
to the facts of its case. “The first inquiry,” the Court
said, is whether the activity at issue—a meeting, call,
or event—is itself a “question, matter, cause, suit,
proceeding or controversy.” Id. at 2368. Since the Court
determined the activity was not, it moved on to the
next inquiry: whether the meeting, call, or event could
“qualify as a ‘decision or action’ on a different question
or matter.” Id. at 2369.
Answering that question, of course, required the
Court to first identify the different question or matter
being acted on. Id. The Court began by explaining that
something like “Virginia business and economic
development” could not constitute an underlying
matter because it is defined at too high a level of
generality and is not something that could be

15a
“pending” before a public official, as the Court has
construed “pending.” Id.
Then the Court turned to the Fourth Circuit’s
formulation of the underlying questions:
(1) “whether researchers at any of Virginia’s state
universities would initiate a study of
Anatabloc”;
(2) “whether
the
state-created
Tobacco
Indemnification and Community Revitalization
Commission would allocate grant money for
the study of anatabine”; and
(3) “whether the health insurance plan for state
employees in Virginia would include Anatabloc
as a covered drug.”

Id. at 2369–70 (citation and internal quotation marks

omitted). The Court agreed with that formulation of
the questions. Each of those questions, McDonnell
explained, “is focused and concrete, and each involves a
formal exercise of governmental power that is similar
in nature to a lawsuit, administrative determination,
or hearing.” Id. at 2370. Still, merely setting up a
meeting, hosting an event, or calling another official—
while actions related to those questions—ultimately
could not qualify as actions or decisions on those
questions. Something more was needed: for example, a
decision to actually initiate a research study or to
provide advice to another official with the intent to
cause the other official to perform an official act. Id.
Then the Supreme Court turned to the jury
instructions the district court gave. Based on its
interpretation of the “official act” language in § 201,
McDonnell concluded that the jury instructions were

16a
“significantly overinclusive.” Id. at 2373–75. In
particular, the district court had instructed the jury
that an “official act” includes “actions that have been
clearly established by settled practice as part of a
public official’s position” and could include acts
designed to contribute to a long-term result. Id. at
2373. But that description did not inform the jury that
an official act must be on a “question, matter, cause,
suit, proceeding or controversy,” nor did it explain how
to identify such an underlying “question, matter,
cause, suit, proceeding or controversy.” Id. at 2374. So
while the Fourth Circuit noted possible questions on
which McDonnell had perhaps acted, nothing
guaranteed that the jury found those questions on its
own; instead, the Supreme Court was concerned that
the jury may have “convicted Governor McDonnell
without finding that he agreed to make a decision or
take an action on a properly defined question, matter,
cause, suit, proceeding or controversy.” Id. at 2374–75
(internal quotation marks omitted). As a result, the
Court concluded the error in the instructions was not
harmless beyond a reasonable doubt. Id.
The Supreme Court left it to the Fourth Circuit to
decide whether to dismiss the case or remand for a new
trial. To make this determination, the Fourth Circuit
was to ascertain whether enough evidence existed to
convict McDonnell of honest-services fraud, given the
Supreme Court’s clarification of “official act.” If so, the
Fourth Circuit could remand for a new trial.
Otherwise, it was to dismiss the charge. Id. at 2375.
ii.

McDonnell compels us to conclude that the
instructions here were erroneous, the error was not

17a
harmless, and a remand for a new trial on the honestservices charge is the appropriate remedy.
As we have noted, the district court instructed
jurors that an “official act” involves a decision or action
“on a question or matter” and that this question or
matter “must involve the formal exercise of
governmental power” and be “something specific which
requires particular attention.” But the court declined
to give Van Buren’s requested instruction that the
question or matter “must be similar in nature to a
lawsuit before a court, a determination before an
agency, or a hearing before a committee,” reasoning
that that instruction was inapplicable to Van Buren’s
case and would only confuse the jury.
This was error. As we have explained, McDonnell
concluded that the words “cause,” “suit,” “proceeding,”
and “controversy” “connote a formal exercise of
governmental power, such as a lawsuit, hearing, or
administrative determination.” McDonnell, 136 S. Ct.
at 2368. So a “question” or “matter”—housed in the
same statutory phrase as “cause,” “suit,” “proceeding,”
and “controversy”—similarly must involve a formal
action of the same gravity as a lawsuit, hearing, or
administrative determination. That analogy—“such as
a lawsuit, hearing, or administrative determination”—
is critical to understanding the meaning of “question”
or “matter” as those terms are used in the federal
bribery statute. And because the qualification that the
“question or matter” be similar in nature to a “lawsuit,
hearing, or administrative determination” is the
product of statutory interpretation, not of McDonnell’s
facts, this qualification applies with equal force to Van
Buren’s case.

18a
This qualification also provides crucial context for
what “formal exercise of governmental power” means,
as that phrase is used in the district court’s jury
instruction. Without this analogy limiting the meaning
of “question” or “matter,” a “formal exercise of
governmental power” could mean anything that a
public official does that falls within the scope of the
official’s duties. Omitting the analogy unravels
essential statutory limitations that the Supreme Court
identified concerning the meaning of “official act.”
Naturally, removing those protections opens the
door to the same harmful effects that the Supreme
Court described in McDonnell. Although the district
court here informed the jury that the “question” or
“matter” had to be a “formal exercise of governmental
power,” that phrase did not illuminate the scale or
nature of the “question” or “matter” that would qualify,
since it was not accompanied by an instruction that the
exercise of governmental power must be comparable to
a lawsuit, agency determination, or committee hearing.
As in McDonnell, then, the instructions “provided no
assurance that the jury reached its verdict after
finding” a qualifying underlying question or matter.
136 S. Ct. at 2374.
And the government’s arguments only reinforce
our doubt that the jury identified a proper “question”
or “matter” before convicting Van Buren. The
government does not argue that the license-plate
search is itself the question or matter, but rather that
the search was an action on a question or matter. But
the government’s formulation of the “question” or
“matter” at issue reveals its own misinterpretation of
those terms as they are used in the federal bribery
statute. Specifically, the government contends that the

19a
underlying “question” is “whether to provide
information to Albo about whether a woman was
working as an undercover police officer.”
That, of course, is not a “question” or “matter”
comparable to a lawsuit, hearing, or administrative
determination. Nor is it a “question” or “matter” like
the ones the Supreme Court identified as similar in
McDonnell. As we have noted, those questions asked
whether to initiate a study at a state university,
whether to allocate grant money for a particular study,
and whether to include something as a covered drug.
McDonnell, 136 S. Ct. at 2370. Each of these three
“questions” is a formal exercise of governmental power
that is similar in nature to, say, an administrative
determination. Merely divulging information to a
civilian is not. And if the government could not identify
a proper question on which Van Buren acted, we can
have no confidence that the jury did.
The government’s incorrect formulation of the
“question” or “matter” here also threatens to transform
any improper disclosure by a public official into an
“official act” under the bribery statute, regardless of
whether the disclosure was meant to influence a
formal exercise of governmental power that is
analogous to a lawsuit, hearing, or administrative
determination. But as McDonnell reminded us, “a
statute in this field that can linguistically be
interpreted to be either a meat axe or a scalpel should
reasonably be taken to be the latter.” 136 S. Ct. at
2373 (citing United States v. Sun-Diamond Growers of
Cal., 526 U.S. 398, 408, 412 (1999)).
Not only was the government’s “question”
incorrect, but the jury instructions also prevented Van

20a
Buren from pointing out the government’s mistake.
Because the jury was not told that the “question” or
“matter” must be similar in nature to a lawsuit before
a court, a determination before an agency, or a hearing
before a committee, Van Buren had no effective way to
highlight the government’s failure to identify an
appropriate “question” on those grounds. Had the jury
been properly instructed, Van Buren very well could
have successfully made that argument. So we cannot
say the error was harmless. See United States v.
Browne, 505 F.3d 1229, 1267–68 (11th Cir. 2007) (“The
correct focus of harmless-error analysis is whether it is
clear beyond a reasonable doubt that a rational jury
would have found the defendant guilty in the absence
of the error.”).
In sum, Van Buren’s requested jury instruction
that the question or matter “must be similar in nature
to a lawsuit before a court, a determination before an
agency, or a hearing before a committee” was correct
and would have conveyed critical information that the
instructions did not otherwise cover. Its omission
deprived Van Buren of a potent argument and allowed
the jury to convict him without identifying a qualifying
“question” or “matter” on which he acted.
We therefore vacate Van Buren’s honest-servicesfraud conviction. Opdahl, 930 F.2d at 1533 (explaining
that failure to give a requested instruction is reversible
if the instruction is correct, not otherwise covered, and
important enough that its omission seriously impaired
the defense). To the extent our prior precedent holds
that an “official act” is simply “[e]very action that is
within the range of official duty,” see United States v.
Moore, 525 F.3d 1033, 1041 (11th Cir. 2008) (quoting
United States v. Birdsall, 233 U.S. 223, 230 (1914)),

21a
without regard to whether that action is on a proper
“question, matter, cause, suit, proceeding or
controversy,” it has clearly been abrogated by
McDonnell. See United States v. Archer, 531 F.3d
1347, 1352 (11th Cir. 2008) (showing how an
intervening decision by the Supreme Court abrogates
clearly inconsistent precedent).
Nevertheless, our vacatur of Van Buren’s honestservices-fraud conviction does not end our inquiry into
that charge. Van Buren also argues the government
failed to present sufficient evidence to convict him of
bribery, raising the question of whether we should
remand for retrial or dismiss the charge. McDonnell,
136 S. Ct. at 2375. After examining the evidence, we
conclude a retrial is warranted.
Had the government identified a correct question
or matter, the evidence, when viewed in the light most
favorable to the government, was sufficient to allow a
reasonable juror to conclude that Van Buren was
guilty of bribery beyond a reasonable doubt. Taylor,
480 F.3d at 1026 (describing standard of review on a
sufficiency-of-the-evidence challenge). Among other
things, Van Buren confessed to the FBI and GBI that
he ran the tag search for money. He also said that he
knew the purpose of the search was to discover and
reveal whether Carson, the woman Albo allegedly met
at the club, was an undercover officer. If the
government had identified the underlying matter as
something like an investigation into illegal activity,
such as prostitution, at the strip club, it may have been
able to prove its case.
Such an investigation would have been a specific,
formal government action, within the ambit of police

22a
activity, that is comparable to a lawsuit, hearing, or
administrative determination. It could have been put
on an agenda, tracked for progress, and marked off as
complete. And Van Buren could have acted on the
underlying investigation because he could have
influenced its findings had he identified an undercover
agent in his tag search and revealed her cover to Albo.
That Carson did not exist does not matter. The
government presented evidence that Van Buren was
fully prepared, and acted, to compromise a potential
investigation, in exchange for money. His guilt or
innocence cannot turn on whether he was lucky
enough that the person he searched for fortuitously did
not exist or that no investigation of the strip club was
actually occurring.
For these reasons, we remand for a new trial on
the honest-services-fraud count. McDonnell, 136 S. Ct.
at 2375.
B.
Next, we turn to Van Buren’s computer-fraud
conviction. For searching Carson’s tag in the GCIC
system, Van Buren was convicted of violating the
Computer Fraud and Abuse Act, which makes it a
crime to obtain “information from any protected
computer” by “intentionally access[ing] a computer
without authorization or exceed[ing] authorized
access.” 18 U.S.C. § 1030(a)(2)(C). Van Buren contends
that two problems specific to his computer-fraud
charge undermine his conviction. He argues, first, that
the district court should have instructed the jury on
the lesser-included offense of misdemeanor computer
fraud, and, second, that the government did not

23a
present enough evidence to sustain his conviction. We
are not persuaded.
i.
The computer-fraud crime of which Van Buren was
convicted is a misdemeanor unless, among other
things, it was committed for private financial gain, in
which case it is a felony. 18 U.S.C. § 1030(c)(2). The
district court instructed the jury on only felony
computer fraud: it told the jury that to return a guilty
verdict against Van Buren, it must conclude that Van
Buren acted for private financial gain. But it did not
raise the possibility that Van Buren could still be
convicted of the lesser-included, misdemeanor version
of the offense, should thejury conclude the financial
element was missing. Van Buren argues that this
omission of the misdemeanor instruction amounted to
reversible error.
To succeed on his claim, Van Buren must meet a
two-part test. First, he must satisfy the “elements test”
by proving that the charged offense encompasses all
the elements of the lesser offense. Here, that is not a
problem. Indeed, the parties do not dispute that the
“elements test” is satisfied: the sole difference between
the felony and misdemeanor versions of crime, as
relevant to Van Buren’s case, is the private-financialgain element. But Van Buren must also meet a second
requirement: he must demonstrate that the evidence
would have allowed a rational jury to acquit him of the
greater offense while convicting him of the lesser.
United States v. Whitman, 887 F.3d 1240, 1246–47
(11th Cir. 2018), cert. denied, 139 S. Ct. 1276, 203
(2019). This he cannot do.

24a
Van Buren’s problem arises from the fact that the
record contains no evidence that Van Buren engaged in
computer access for any reason other than financial
gain. As an initial matter, Van Buren’s argument that
there is evidence he ran the search as part of a goodfaith effort to investigate Albo’s other troubles with
women does him no good: if Van Buren truly ran the
PKP1568 tag as part of a legitimate good-faith
investigation, that would absolve him of computer
fraud entirely, since he would just be doing his job. As
a result, even assuming a jury could find he acted in
good faith, that would not support the inference that a
rational jury could have convicted him of misdemeanor
computer fraud. Plus, the record lacks any evidence
that Van Buren ran the PKP1568 tag as part of a goodfaith investigation.
Perhaps sensing the hole in this argument, Van
Buren alternatively urges that the money he received
was only a loan. Even if we call the money Van Buren
received a “loan,” though, a loan still confers financial
benefit. As Van Buren admitted, he needed money to
cover his bills but was having trouble securing a loan
because of his poor credit. So receiving what appears to
be an interest-free cash loan that he could use to cover
any immediate needs counts as financial gain.
Van Buren next claims the record contains
evidence that he ran the GCIC search before Albo
offered him money to do so. This “evidence” appears to
consist of the brief phone call between Van Buren and
Albo on the morning of August 31, 2015, when Albo
asked Van Buren if he had run the license plate yet,
and Van Buren replied, “I don’t—I don’t think I got the
right plate numbers from you.” Van Buren suggests
this conversation demonstrates that Van Buren had

25a
already run a search on Carson’s plate before receiving
the $1,000 payment, so he had no financial motive for
the unauthorized search.
But the rest of the record frustrates Van Buren’s
attempt to capitalize on his stray remark. First, on
August 21—ten days before the August 31
conversation on which Van Buren relies—Van Buren
had already received $5,000 from Albo and agreed in
principle to investigate Carson. And second, even
setting aside those facts, which independently
establish financial gain, the record reflects that Albo
did not provide Van Buren with Carson’s purported
plate number for the first time until after the August
31 conversation. In fact, Van Buren only ever tried to
run Carson’s alleged tag number once, and that
occurred on September 2, 2015—again, after the
August 31 conversation. So on this record, Van Buren’s
“I don’t think I got the right plate numbers from you”
comment can be understood to mean only that he had
not yet received Carson’s license-plate information
from Albo.
Finally, Van Buren tries to show that a jury could
have determined he wrongly accessed the computer for
reasons other than financial gain: he highlights a
comment he made to Albo during a recorded
conversation on August 26, 2015. At that time, Van
Buren stated, “I’m not charging for helping you out.” In
that convoluted exchange, though, Van Buren
simultaneously claimed he was not looking into Carson
for money, while he also probed whether Albo would
continue to “help [him] out with the rest of the medical
bills.” Van Buren refers to the “rest” of the bills, of
course, because he had already received $5,000 of the
$15,368 he allegedly needed and had already agreed to

26a
research Carson’s identity by that point. And later,
Van Buren texted Albo for more money as a condition
of running the search and took another $1,000. But
perhaps most significantly, Van Buren expressly
confessed to the FBI and GBI that he ran the tag
search for money.
In short, no jury could have rationally believed
that if Van Buren searched Carson’s tag in the GCIC
system on September 2, 2015, he did it for some nonfinancial, unidentified reason. The district court
therefore did not abuse its discretion in declining to
give the misdemeanor-computer-fraud instruction.
ii.
We next consider Van Buren’s contention that the
evidence did not sufficiently support his conviction for
computer fraud. Although styled as a sufficiency-ofthe-evidence challenge, the animating force behind this
argument is an appeal to overrule United States v.
Rodriguez, 628 F.3d 1258 (11th Cir. 2010), where we
held that even a person with authority to access a
computer can be guilty of computer fraud if that person
subsequently misuses the computer.
Rodriguez, the defendant in that case, was a Social
Security Administration (“SSA”) employee who, for
personal reasons, used the SSA’s computer database to
research information such as birth dates and home
addresses of 17 people. Rodriguez, 628 F.3d at 1260.
This violated SSA policy, which prohibited employees
from obtaining information from SSA databases
without a legitimate business reason. Id. Rodriguez
was convicted of computer fraud.
On appeal, though, he argued he was innocent
because “he accessed only databases that he was

27a
authorized to use,” albeit for inappropriate reasons. Id.
at 1263. We rejected that argument. We noted that the
computer-fraud statute defines “exceeds authorized
access,” as “to access a computer with authorization
and to use such access to obtain or alter information in
the computer that the accesser is not entitled [so] to
obtain or alter.” Id. at 1263 (quoting § 1030(e)(6)).
Then we determined that the defendant had “exceeded
his authorized access and violated the [computer-fraud
statute] when he obtained [the victims’] personal
information for a nonbusiness reason.” Id. (emphasis
added).
Van Buren points out that our sister circuits have
criticized Rodriguez’s interpretation of “exceeds
authorized access,” since it purportedly allows
employers or other parties to legislate what counts as
criminal behavior through their internal policies or
their terms of use. Echoing the defendant’s argument
in Rodriguez, Van Buren alleges that he is innocent of
computer fraud because he accessed only databases
that he was authorized to use, even though he did so
for an inappropriate reason.
We acknowledge that other courts have rejected

Rodriguez’s interpretation of “exceeds authorized
access.” See, e.g., United States v. Nosal, 676 F.3d 854,

860 (9th Cir. 2012) (en banc) (noting that activities like
“[Google]-chatting with friends, playing games,
shopping or watching sports highlights” on a work
computer are routinely prohibited by computer-use
policies, and worrying that “under the broad
interpretation of the [computer-fraud statute], such
minor dalliances would become federal crimes”);
United States v. Valle, 807 F.3d 508, 528 (2d Cir. 2015)
(“While the Government might promise that it would

28a
not prosecute an individual for checking Facebook at
work, we are not at liberty to take prosecutors at their
word in such matters.”). But under our prior-precedent
rule, “a prior panel’s holding is binding on all
subsequent panels unless and until it is overruled or
undermined to the point of abrogation by the Supreme
Court or by this court sitting en banc.” Archer, 531
F.3d at 1352. Since Van Buren has identified no
Supreme Court or en banc decision of this Circuit that
abrogates Rodriguez, we must continue to follow it.
And under Rodriguez, there is no question that the
record contained enough evidence for a jury to convict
Van Buren of computer fraud. The evidence showed
that Van Buren accepted $6,000 and agreed to
investigate Carson. It demonstrated that Van Buren
searched what was supposed to be Carson’s tag in the
GCIC database. At trial, one of the assistant deputy
directors of the GCIC testified that the database is
supposed to be used for law-enforcement purposes only
and that officers are trained on the proper and
improper uses of the system. Van Buren also admitted
to the FBI and GBI that he knew it was “wrong” to run
the tag search and that he had done so for money. And
as we have noted, Rodriguez previously rejected the
contention that misusing databases a defendant
lawfully can access does not constitute computer fraud.
Taken in the light most favorable to the verdict, under
our binding Circuit precedent, a jury could have found
beyond a reasonable doubt that Van Buren committed
computer fraud for financial gain.
C.
Van Buren raises two remaining arguments: one
challenging the district court’s decision to decline

29a
giving good-faith instructions to the jury, and the other
asserting that his Sixth Amendment right to confront
Albo was violated at trial. We address each in turn.
i.
First, Van Buren contends the district court
abused its discretion in refusing to give his requested
good-faith instructions. Specifically, Van Buren asked
for two good-faith instructions, one explaining that
good faith is a complete defense to any charge that
requires willfulness and one explaining that good faith
is a complete defense to any charge that requires
intent to defraud. The district court declined to give
those instructions, reasoning that the record lacked
any evidentiary basis to support them. That decision
fell within the proper scope of the district court’s
discretion.
As we have explained, a district court’s refusal to
provide a requested instruction is reversible error if (1)
the requested instruction was legally correct, (2) the
content of the requested instruction was not otherwise
covered, and (3) the omitted instruction was so vital
that its absence seriously impaired the defense.
Opdahl, 930 F.2d at 1533. A good-faith instruction is
legally correct if any foundation in evidence supports
it. United States v. Martinelli, 454 F.3d 1300, 1315
(11th Cir. 2006). But Van Buren has not met even this
minimal evidentiary bar.
He points out that in the past, he and other officers
had searched license plates Albo had provided, as part
of legitimate investigations into Albo’s issues with
other women. That’s true. What’s missing, though, is
any evidence that Van Buren searched the particular
tag at issue this time—PKP1568—for a law-

30a
enforcement purpose. So Van Buren’s requested
instruction is not “correct” because no evidentiary
basis supports it.
Nor has Van Buren showed that omission of the
good-faith instructions seriously impaired his defense,
since even assuming that any trace of good faith could
be squeezed from the record, it would have been
negligible in the face of the overwhelming evidence of
wrongdoing. See Martinelli, 454 F.3d at 1316 (holding
that the absence of a good-faith instruction did not
seriously impair the defense, since “the evidence of
fraud . . . was overwhelming and the evidence of good
faith was slight.”).
ii.
Finally, Van Buren argues he was deprived of his
Sixth Amendment right to confront adverse witnesses.
Albo did not testify at Van Buren’s trial because he
allegedly had fled to Italy. In Albo’s absence, the
government played the recordings that the FBI had
taped of the conversations between Albo and Van
Buren. Van Buren contends that the admission of
Albo’s statements on the recordings violated his
constitutional right to confront Albo. We find no merit
to that argument.
The Sixth Amendment’s Confrontation Clause
guarantees a criminal defendant “the right . . . to be
confronted with the witnesses against him.” U.S.
Const. amend. VI. This usually means that the
defendant must have an opportunity to cross-examine
an adverse witness at trial before that witness’s
statements may be admitted. Crawford v. Washington,
541 U.S. 36, 53-54 (2004). But significantly, the
Confrontation Clause does not block statements that

31a
are used “for purposes other than establishing the
truth of the matter asserted.” Id. at 59 n.9.
For instance, in United States v. Price, 792 F.2d
994 (11th Cir. 1986), the government relied on
recordings between the defendant and another
individual, since the person who made the recordings
had passed away before trial. Id. at 996. The defendant
asserted that admitting the other person’s statements
on the recording violated his Confrontation Clause
right. We rejected that argument, finding that “[t]he
single purpose for admitting the [other person’s]
statements was to make understandable to the jury
the statements made by [the defendant] himself.” Id. at
997. Put simply, the statements in question were not
offered for their truth, so the defendant’s “Sixth
Amendment right of confrontation and to present a
defense was not violated by the introduction of the
tapes into evidence.” Id.
The same is true here: Albo’s statements were
admitted only to provide context for Van Buren’s
statements and to show their effect on Van Buren. For
example, whether Albo was actually interested in
Carson or whether he actually wanted to learn her real
identity was not at issue here; the truth or falsity of
those claims did not tend to make it more or less likely
that Van Buren had committed a charged crime.
Rather, the government offered those statements solely
to put into context Van Buren’s remarks and actions.
Because none of Albo’s recorded statements was
offered for its truth, none was subject to the
Confrontation Clause.

32a
IV.
For all the above reasons, we vacate Van Buren’s
honest-services-fraud conviction and remand for a new
trial on that charge. We affirm his computer-fraud
conviction.
VACATED AND
AFFIRMED IN PART.

REMANDED

IN

PART;

33a
APPENDIX B
United States Code Title 18
Crimes and Criminal Procedure
Part I. Crimes
Chapter 47. Fraud and False Statements
18 U.S.C. § 1030. Fraud and related activity in
connection with computers
Effective: January 7, 2011
(a) Whoever—
(1) having knowingly accessed a computer without
authorization or exceeding authorized access, and
by means of such conduct having obtained
information that has been determined by the
United States Government pursuant to an
Executive order or statute to require protection
against unauthorized disclosure for reasons of
national defense or foreign relations, or any
restricted data, as defined in paragraph y. of
section 11 of the Atomic Energy Act of 1954, with
reason to believe that such information so obtained
could be used to the injury of the United States, or
to the advantage of any foreign nation willfully
communicates, delivers, transmits, or causes to be
communicated, delivered, or transmitted, or
attempts to communicate, deliver, transmit or
cause to be communicated, delivered, or
transmitted the same to any person not entitled to
receive it, or willfully retains the same and fails to
deliver it to the officer or employee of the United
States entitled to receive it;

34a
(2) intentionally accesses a computer without
authorization or exceeds authorized access, and
thereby obtains—
(A) information contained in a financial record
of a financial institution, or of a card issuer as
defined in section 1602(n) [1] of title 15, or
contained in a file of a consumer reporting
agency on a consumer, as such terms are defined
in the Fair Credit Reporting Act (15 U.S.C. 1681
et seq.);
(B) information from any department or agency
of the United States; or
(C) information from any protected computer;
(3) intentionally, without authorization to access
any nonpublic computer of a department or agency
of the United States, accesses such a computer of
that department or agency that is exclusively for
the use of the Government of the United States or,
in the case of a computer not exclusively for such
use, is used by or for the Government of the United
States and such conduct affects that use by or for
the Government of the United States;
(4) knowingly and with intent to defraud, accesses
a protected computer without authorization, or
exceeds authorized access, and by means of such
conduct furthers the intended fraud and obtains
anything of value, unless the object of the fraud
and the thing obtained consists only of the use of
the computer and the value of such use is not more
than $5,000 in any 1-year period;
(5)

35a
(A) knowingly causes the transmission of a
program, information, code, or command, and as
a result of such conduct, intentionally causes
damage without authorization, to a protected
computer;
(B) intentionally accesses a protected computer
without authorization, and as a result of such
conduct, recklessly causes damage; or
(C) intentionally accesses a protected computer
without authorization, and as a result of such
conduct, causes damage and loss.[2]
(6) knowingly and with intent to defraud traffics
(as defined in section 1029) in any password or
similar information through which a computer may
be accessed without authorization, if—
(A) such trafficking affects interstate or foreign
commerce; or
(B) such computer is used by or for the
Government of the United States; [3]
(7) with intent to extort from any person any
money or other thing of value, transmits in
interstate or foreign commerce any communication
containing any—
(A) threat to cause damage to a protected
computer;
(B) threat to obtain information from a protected
computer without authorization or in excess of
authorization or to impair the confidentiality of
information obtained from a protected computer
without
authorization
or
by
exceeding
authorized access; or

36a
(C) demand or request for money or other thing
of value in relation to damage to a protected
computer, where such damage was caused to
facilitate the extortion;
shall be punished as provided in subsection (c) of
this section.
(b) Whoever conspires to commit or attempts to commit
an offense under subsection (a) of this section shall be
punished as provided in subsection (c) of this section.
(c) The punishment for an offense under subsection (a)
or (b) of this section is—
(1)
(A) a fine under this title or imprisonment for
not more than ten years, or both, in the case of
an offense under subsection (a)(1) of this section
which does not occur after a conviction for
another offense under this section, or an attempt
to commit an offense punishable under this
subparagraph; and
(B) a fine under this title or imprisonment for
not more than twenty years, or both, in the case
of an offense under subsection (a)(1) of this
section which occurs after a conviction for
another offense under this section, or an attempt
to commit an offense punishable under this
subparagraph;
(2)
(A) except as provided in subparagraph (B), a
fine under this title or imprisonment for not
more than one year, or both, in the case of an
offense under subsection (a)(2), (a)(3), or (a)(6) of

37a
this section which does not occur after a
conviction for another offense under this section,
or an attempt to commit an offense punishable
under this subparagraph;
(B) a fine under this title or imprisonment for
not more than 5 years, or both, in the case of an
offense under subsection (a)(2), or an attempt to
commit an offense punishable under this
subparagraph, if—
(i) the offense was committed for purposes of
commercial advantage or private financial
gain;
(ii) the offense was committed in furtherance of
any criminal or tortious act in violation of the
Constitution or laws of the United States or of
any State; or
(iii) the value of the information obtained
exceeds $5,000; and
(C) a fine under this title or imprisonment for
not more than ten years, or both, in the case of
an offense under subsection (a)(2), (a)(3) or (a)(6)
of this section which occurs after a conviction for
another offense under this section, or an attempt
to commit an offense punishable under this
subparagraph;
(3)
(A) a fine under this title or imprisonment for
not more than five years, or both, in the case of
an offense under subsection (a)(4) or (a)(7) of
this section which does not occur after a
conviction for another offense under this section,

38a
or an attempt to commit an offense punishable
under this subparagraph; and
(B) a fine under this title or imprisonment for
not more than ten years, or both, in the case of
an offense under subsection (a)(4),[4] or (a)(7) of
this section which occurs after a conviction for
another offense under this section, or an attempt
to commit an offense punishable under this
subparagraph;
(4)
(A) except as provided in subparagraphs (E) and
(F), a fine under this title, imprisonment for not
more than 5 years, or both, in the case of—
(i) an offense under subsection (a)(5)(B), which
does not occur after a conviction for another
offense under this section, if the offense caused
(or, in the case of an attempted offense, would,
if completed, have caused)—
(I) loss to 1 or more persons during any 1-year
period (and, for purposes of an investigation,
prosecution, or other proceeding brought by
the United States only, loss resulting from a
related course of conduct affecting 1 or more
other protected computers) aggregating at
least $5,000 in value;
(II) the modification or impairment, or
potential modification or impairment, of the
medical examination, diagnosis, treatment, or
care of 1 or more individuals;
(III) physical injury to any person;
(IV) a threat to public health or safety;

39a
(V) damage affecting a computer used by or
for an entity of the United States Government
in furtherance of the administration of
justice, national defense, or national security;
or
(VI) damage affecting 10 or more protected
computers during any 1-year period; or
(ii) an attempt to commit an offense punishable
under this subparagraph;
(B) except as provided in subparagraphs (E) and
(F), a fine under this title, imprisonment for not
more than 10 years, or both, in the case of—
(i) an offense under subsection (a)(5)(A), which
does not occur after a conviction for another
offense under this section, if the offense caused
(or, in the case of an attempted offense, would,
if completed, have caused) a harm provided in
subclauses (I) through (VI) of subparagraph
(A)(i); or
(ii) an attempt to commit an offense punishable
under this subparagraph;
(C) except as provided in subparagraphs (E) and
(F), a fine under this title, imprisonment for not
more than 20 years, or both, in the case of—
(i) an offense or an attempt to commit an
offense under subparagraphs (A) or (B) of
subsection (a)(5) that occurs after a conviction
for another offense under this section; or
(ii) an attempt to commit an offense punishable
under this subparagraph;

40a
(D) a fine under this title, imprisonment for not
more than 10 years, or both, in the case of—
(i) an offense or an attempt to commit an
offense under subsection (a)(5)(C) that occurs
after a conviction for another offense under
this section; or
(ii) an attempt to commit an offense punishable
under this subparagraph;
(E) if the offender attempts to cause or
knowingly or recklessly causes serious bodily
injury from conduct in violation of subsection
(a)(5)(A), a fine under this title, imprisonment
for not more than 20 years, or both;
(F) if the offender attempts to cause or
knowingly or recklessly causes death from
conduct in violation of subsection (a)(5)(A), a fine
under this title, imprisonment for any term of
years or for life, or both; or
(G) a fine under this title, imprisonment for not
more than 1 year, or both, for—
(i) any other offense under subsection (a)(5); or
(ii) an attempt to commit an offense punishable
under this subparagraph.
(d)
(1) The United States Secret Service shall, in
addition to any other agency having such
authority, have the authority to investigate
offenses under this section.
(2) The Federal Bureau of Investigation shall have
primary authority to investigate offenses under
subsection (a)(1) for any cases involving espionage,

41a
foreign counterintelligence, information protected
against unauthorized disclosure for reasons of
national defense or foreign relations, or Restricted
Data (as that term is defined in section 11y of the
Atomic Energy Act of 1954 (42 U.S.C. 2014(y)),
except for offenses affecting the duties of the
United States Secret Service pursuant to section
3056(a) of this title.
(3) Such authority shall be exercised in accordance
with an agreement which shall be entered into by
the Secretary of the Treasury and the Attorney
General.
(e) As used in this section—
(1) the term “computer” means an electronic,
magnetic, optical, electrochemical, or other high
speed data processing device performing logical,
arithmetic, or storage functions, and includes any
data storage facility or communications facility
directly related to or operating in conjunction with
such device, but such term does not include an
automated typewriter or typesetter, a portable
hand held calculator, or other similar device;
(2) the term “protected computer” means a
computer—
(A) exclusively for the use of a financial
institution or the United States Government, or,
in the case of a computer not exclusively for such
use, used by or for a financial institution or the
United States Government and the conduct
constituting the offense affects that use by or for
the financial institution or the Government; or

42a
(B) which is used in or affecting interstate or
foreign commerce or communication, including a
computer located outside the United States that
is used in a manner that affects interstate or
foreign commerce or communication of the
United States;
(3) the term “State” includes the District of
Columbia, the Commonwealth of Puerto Rico, and
any other commonwealth, possession or territory of
the United States;
(4) the term “financial institution” means—
(A) an institution, with deposits insured by the
Federal Deposit Insurance Corporation;
(B) the Federal Reserve or a member of the
Federal Reserve including any Federal Reserve
Bank;
(C) a credit union with accounts insured by the
National Credit Union Administration;
(D) a member of the Federal home loan bank
system and any home loan bank;
(E) any institution of the Farm Credit System
under the Farm Credit Act of 1971;
(F) a broker-dealer registered with the
Securities and Exchange Commission pursuant
to section 15 of the Securities Exchange Act of
1934;
(G)
the
Securities
Corporation;

Investor

Protection

(H) a branch or agency of a foreign bank (as
such terms are defined in paragraphs (1) and (3)

43a
of section 1(b) of the International Banking Act
of 1978); and
(I) an organization operating under section 25 or
section 25(a) 1 of the Federal Reserve Act;
(5) the term “financial record” means information
derived from any record held by a financial
institution pertaining to a customer’s relationship
with the financial institution;
(6) the term “exceeds authorized access” means to
access a computer with authorization and to use
such access to obtain or alter information in the
computer that the accesser is not entitled so to
obtain or alter;
(7) the term “department of the United States”
means the legislative or judicial branch of the
Government or one of the executive departments
enumerated in section 101 of title 5;
(8) the term “damage” means any impairment to
the integrity or availability of data, a program, a
system, or information;
(9) the term “government entity” includes the
Government of the United States, any State or
political subdivision of the United States, any
foreign country, and any state, province,
municipality, or other political subdivision of a
foreign country;
(10) the term “conviction” shall include a
conviction under the law of any State for a crime
punishable by imprisonment for more than 1 year,
an element of which is unauthorized access, or
exceeding authorized access, to a computer;

44a
(11) the term “loss” means any reasonable cost to
any victim, including the cost of responding to an
offense, conducting a damage assessment, and
restoring the data, program, system, or
information to its condition prior to the offense,
and any revenue lost, cost incurred, or other
consequential damages incurred because of
interruption of service; and
(12) the term “person” means any individual, firm,
corporation, educational institution, financial
institution, governmental entity, or legal or other
entity.
(f) This section does not prohibit any lawfully
authorized investigative, protective, or intelligence
activity of a law enforcement agency of the United
States, a State, or a political subdivision of a State, or
of an intelligence agency of the United States.
(g) Any person who suffers damage or loss by reason of
a violation of this section may maintain a civil action
against the violator to obtain compensatory damages
and injunctive relief or other equitable relief. A civil
action for a violation of this section may be brought
only if the conduct involves 1 of the factors set forth in
subclauses [5] (I), (II), (III), (IV), or (V) of subsection
(c)(4)(A)(i). Damages for a violation involving only
conduct described in subsection (c)(4)(A)(i)(I) are
limited to economic damages. No action may be
brought under this subsection unless such action is
begun within 2 years of the date of the act complained
of or the date of the discovery of the damage. No action
may be brought under this subsection for the negligent
design or manufacture of computer hardware,
computer software, or firmware.

45a
(h) The Attorney General and the Secretary of the
Treasury shall report to the Congress annually, during
the first 3 years following the date of the enactment of
this subsection, concerning investigations and
prosecutions under subsection (a)(5).
(i)
(1) The court, in imposing sentence on any person
convicted of a violation of this section, or convicted
of conspiracy to violate this section, shall order, in
addition to any other sentence imposed and
irrespective of any provision of State law, that such
person forfeit to the United States—
(A) such person’s interest in any personal
property that was used or intended to be used to
commit or to facilitate the commission of such
violation; and
(B) any property, real or personal, constituting
or derived from, any proceeds that such person
obtained, directly or indirectly, as a result of
such violation.
(2) The criminal forfeiture of property under this
subsection, any seizure and disposition thereof,
and any judicial proceeding in relation thereto,
shall be governed by the provisions of section 413
of the Comprehensive Drug Abuse Prevention and
Control Act of 1970 (21 U.S.C. 853), except
subsection (d) of that section.
(j) For purposes of subsection (i), the following shall be
subject to forfeiture to the United States and no
property right shall exist in them:
(1) Any personal property used or intended to be
used to commit or to facilitate the commission of

46a
any violation of this section, or a conspiracy to
violate this section.
(2) Any property, real or personal, which
constitutes or is derived from proceeds traceable to
any violation of this section, or a conspiracy to
violate this section.

